APPENDIX TO THE PETITION FOR A WRIT OF
CERTIORARI
TABLE OF CONTENTS
APPENDIX A
Sixth Circuit Decision
Dated June 12, 2020 ................................................1a
APPENDIX B
Northern District of Ohio Decision
Dated November 23, 2015.......................................19a
APPENDIX C
General Order No. 2019-4 (N.D. Ohio, January 24,
2019) ....................................................................... 26a

1a
United States v. Williams
United States Court of Appeals for the Sixth Circuit
June 12, 2020, Filed
Case No. 19-396
UNITED STATES OF AMERICA, Plaintiff-Appellee,
v. LARRY WILLIAMS, Defendant-Appellant.
Counsel: For United States of America, Plaintiff Appellee: Daniel R. Ranke, Assistant U.S. Attorney,
Office of the U.S. Attorney, Cleveland, OH.
For Larry Williams, Defendant - Appellant: Jeffrey
B. Lazarus, Federal Public Defender's Office,
Cleveland, OH.
Judges: BEFORE:
MOORE,
SUTTON,
and
GRIFFIN, Circuit Judges. KAREN NELSON
MOORE, Circuit Judge, dissenting.
Opinion by: SUTTON
Opinion
SUTTON, Circuit Judge. Larry Williams filed a
motion to reduce his sentence under the First Step
Act. After a hearing, the district court denied his
request. Because the court did not abuse its
discretion, we affirm.
In June 2006, police executed a search
warrant of Williams's home. They uncovered

2a
approximately 88 grams of crack cocaine, about 24
grams of heroin, and drug-packaging materials. A
search of his storage unit yielded three rifles, a
pistol, and 27 rounds of ammunition. All of this led
to a three-count indictment for possessing cocaine
with intent to distribute, possessing heroin with
intent to distribute, and possessing firearms as a
convicted felon. See 21 U.S.C. § 841(a)(1); 18 U.S.C. §
922(g). Williams pleaded guilty.
Prior convictions for armed robbery, burglary,
drug trafficking, drug possession, and manslaughter
led to a criminal history category of six. Based on
that score and the quantities of drugs involved in his
crime, his guidelines range stood at 151 to 188
months. Noting Williams's "tragic" upbringing, the
court imposed a sentence at the bottom of that
range: 151 months. R. 36 at 28-29. Williams did not
appeal.
Several
years
later,
the
Sentencing
Commission reduced the base offense levels for
certain drug crimes. See U.S.S.G. amend. 782 (eff.
Nov. 1, 2014). Williams filed a motion to reduce his
sentence. See 18 U.S.C. § 3582(c)(2). After
acknowledging Williams's eligibility for a reduction,
the court declined the request. It explained that the
existing sentence "appropriately reflect[ed] the
seriousness of the offense," and was also "necessary
to protect the public and afford adequate deterrence"
given Williams's "extensive criminal history and his
propensity to engage in violent or drug-related
criminal conduct." R. 42 at 5. Williams did not
appeal.
In December 2018, Congress passed the First
Step Act. Pub. L. No. 115-391, 132 Stat. 5194. The

3a
Act made retroactive certain sentencing changes
from an earlier statute, the Fair Sentencing Act. Id.
§ 404(a), (b). The Fair Sentencing Act lowered
mandatory minimums for crack cocaine offenses and
directed the Sentencing Commission to make similar
changes to the guidelines. Fair Sentencing Act of
2010, § 2(a), Pub. L. No. 111-220, 124 Stat. 2372.
The First Step Act allowed those sentenced under
the old regime to file a motion to reduce their
sentence. If they do, then the court "may . . . impose
a reduced sentence as if" the relevant provisions of
the Fair Sentencing Act "were in effect at the time
the covered offense was committed." First Step Act, §
404(b). But none of this "shall be construed to
require a court to reduce any sentence." Id. § 404(c).
Williams filed a First Step Act motion. Because one
of his convictions involved crack cocaine, the Act
reduces his sentencing range. With all subsequent
reductions factored in, his new guidelines range
would be 77 to 96 months. Williams asked the
district court for a reduction to 77 months. The
government did not oppose his request.
The court held a hearing. After listening to
each side, it said it was not inclined to grant a
reduction. The court explained that Williams's
heroin distribution and the four guns and
ammunition found on him meant that this is not
merely "a crack cocaine case," and his extensive
criminal history suggested a heightened need to
protect the public. R. 59 at 11-15. His attorney
pushed back, detailing Williams's efforts at
rehabilitation and reminding the court that it could
agree to a lesser reduction than the one Williams
offered. The court said it would take more time to

4a
consider the issues and would provide a written
decision. That order explained that the court was
"mindful of its discretion" and had considered
Williams's efforts to "better[] himself through
educational and vocational classes within prison" but
still declined to reduce his sentence. R. 60 at 5.
Williams appealed. We have jurisdiction under 28
U.S.C. § 1291. See United States v. Smithers, F.3d
, 2020 U.S. App. LEXIS 16649, 2020 WL 2702500,
at *4 (6th Cir. 2020). The government does not argue
that we lack authority to review the decision for
abuse of discretion.
Williams is eligible for a reduction under the
First Step Act. But that is not the same as
entitlement. The statute says that the court "may . . .
impose a reduced sentence," meaning that the
ultimate decision is left to the district court's "sound
discretion." First Step Act of 2018, § 404(b), (c);
United States v. Beamus, 943 F.3d 789, 792 (6th Cir.
2019) (per curiam). The parties assume that we may
review for abuse of discretion and assume our review
"resembles the reasonableness review that would
apply to a sentence on direct appeal." Smithers, 2020
U.S. App. LEXIS 16649, 2020 WL 2702500, at *4.
The court did not abuse its discretion. It made
its decision after careful consideration of the
sentencing factors in 18 U.S.C. § 3553(a). It
considered the nature and circumstances of the
offense: Williams committed his offenses while out
on bond for aggravated murder, and they involved
substantial quantities of heroin (not just cocaine)
and four guns. 18 U.S.C. § 3553(a)(1). It considered
the history and characteristics of the defendant: The
court reviewed Williams's extensive criminal record,

5a
revealing a "drug trafficker who has been willing to
use violence and use a firearm" and who continued
to commit crimes despite jail time. R. 59 at 19-20; 18
U.S.C. § 3553(a)(1). It considered the need for the
sentence to deter crime and protect the public:
Shorter sentences had not been a deterrent before,
and Williams's violent record meant he was not a
"good risk to [be] put back in the community." R. 59
at 14-15; 18 U.S.C. § 3553(a)(2). It considered the
range of sentencing options and the applicable
guidelines range: The court repeatedly referenced its
discretion to reduce Williams's sentence and the new
reduced guidelines range. 18 U.S.C. § 3553(a)(3), (4).
Counsel for Williams had plenty of opportunities to
make his case, and the court responded to his
arguments.
All told, the court's analysis "fell within the
scope of the lawful professional judgment that the
law confers upon the sentencing judge." ChavezMeza v. United States, 138 S. Ct. 1959, 1967-68, 201
L. Ed. 2d 359 (2018). It also was consistent with our
precedents. We have affirmed First Step Act denials
involving defendants with equally serious offenses
and criminal records. See, e.g., Smithers, 2020 U.S.
App. LEXIS 16649, 2020 WL 2702500, at *4; United
States v. Robinson, F. App'x
, 2020 U.S. App.
LEXIS 16430, 2020 WL 2611192, at *1-3 (6th Cir.
2020); United States v. Rosado, No. 19-5134, 2019
U.S. App. LEXIS 26513, at *2-3, *5 (6th Cir. Aug. 30,
2019).
Williams counters that the court "failed to
account" for his "rehabilitative efforts" and
"improperly . . . question[ed] the value of an inmate's
rehabilitation generally." Appellant Br. 13. District

6a
courts, it is true, may consider the defendant's postsentencing rehabilitation when taking stock of these
motions. United States v. Allen, 956 F.3d 355, 35758 (6th Cir. 2020). But that is what the court did. It
acknowledged that Williams "may be rehabilitating
himself while he's in custody," encouraged him to
"[k]eep doing what you're doing," and referenced the
need for a sentence to "improve the offender's
conduct and condition." R. 59 at 16, 19. It said the
same thing in its written decision, noting it had
"taken into account Williams' assertions that he has
bettered himself through educational and vocational
classes within prison." R. 60 at 5. That suffices as a
procedural matter. See, e.g., United States v.
Richardson, F.3d , 2020 U.S. App. LEXIS 17047,
2020 WL 2781306, at *3 (6th Cir. 2020); United
States v. Woods, 949 F.3d 934, 938 (6th Cir. 2020).
Williams adds that the court discounted the
value of rehabilitation when it said "it's easy to
[rehabilitate] when you're in custody." R. 59 at 19.
But a fairer interpretation of the statement in
context is that the court thought longer
incarceration would better serve the goal of
"provid[ing] the defendant with needed educational
or vocational training, medical care, or other
correctional treatment in the most effective manner."
18 U.S.C. § 3553(a)(2)(D). That explains why the
court encouraged Williams to continue his
rehabilitative efforts.
Williams claims that the court "improperly
relied on the sentencing recommendation of the
probation officer from Mr. Williams's original
sentencing hearing twelve years earlier." Appellant
Br. 13. But the context of the court's statement

7a
reveals otherwise. "And unfortunately, and sadly,"
the court said, "when you look at that record, the
probation department recommended at that time a
high-end guideline sentence of 188 months,
recognizing the modification of the guidelines that
the parties have referenced and agreed to appl[y]. I'll
keep that in mind." R. 59 at 14. It is just as likely the
court was "keep[ing] [] in mind" the "modification of
the
guidelines"
rather
than
the
original
recommendation. Id. There's no indication at any
rate that the court thought the original
recommendation reflected [*8] Williams's current
guidelines range. As shown, the court understood the
updated range, and courts may rely on the entire
record,
including
the
original
sentencing
proceedings. Chavez-Meza, 138 S. Ct. at 1967; see
United States v. Boose, No. 19-3455, 2019 U.S. App.
LEXIS 35703, at *4-6 (6th Cir. Nov. 26, 2019).
Williams fears that the court "failed to
appreciate its discretion to grant a sentence
reduction," thinking it "had to accept the joint
recommendation of the parties for a reduction to 77
months, or conversely give no reduction at all."
Appellant Br. 13. If true, that would be a problem.
But nothing in the record shows the court failed to
appreciate such a basic point. Williams's counsel
reminded the court of its discretion. And the court
acknowledged that the "First Step Act now permits
the Court to exercise the full range of its discretion"
under the § 3553(a) factors and said it was "mindful
of its discretion." R. 60 at 2, 5.
Williams also suggests that the court placed
undue weight on his criminal record. But we must
give "due deference" to the district court's balancing

8a
of the § 3553(a) factors, not our own balancing of
those factors. Gall v. United States, 552 U.S. 38, 51,
128 S. Ct. 586, 169 L. Ed. 2d 445 (2007). The court
provided a "significant justification" for the sentence,
conducting a thorough analysis of the sentencing
factors and explaining how Williams's criminal
history fit into them. Id. at 50. In direct sentencing
appeals we have upheld similar sentences for similar
reasons. See, e.g., United States v. Thomas, 933 F.3d
605, 612-14 (6th Cir. 2019); United States v.
Woodard, 638 F.3d 506, 510-11 (6th Cir. 2011);
United States v. McBee,
F. App'x , 2020 U.S.
App. LEXIS 14781, 2020 WL 2204231, at *4 (6th Cir.
2020); United States v. Jennings, 407 F. App'x 20,
21-22 (6th Cir. 2011); United States v. BenitezSalinas, 364 F. App'x 227, 228-29 (6th Cir. 2010).
And in First Step Act appeals, we have affirmed
courts that declined to reduce sentences for similar
reasons. See, e.g., Woods, 949 F.3d at 938; Robinson,
2020 U.S. App. LEXIS 16430, 2020 WL 2611192, at
*3.
With respect to our colleague, United States v.
Smith is not the Rosetta Stone of sentencing appeals
and indeed Williams never raised the decision as
supplemental authority. 959 F.3d 701, 2020 WL
2503261 (6th Cir. 2020). Yes, the court reversed a
district court that declined to reduce an aboveguidelines sentence under the First Step Act. 959
F.3d 701, Id. at *3. But that case has more
differences than parallels to this one. The defendant
was convicted of cocaine distribution alone, while
Williams was convicted of cocaine distribution and
heroin distribution and illegal possession of four
guns. 959 F.3d 701, Id. at *1. Nor is there any

9a
indication that Smith had a history of violence.
Contrast that with Williams, who has been convicted
of many violent crimes, often committed immediately
after shorter prison sentences, including a
manslaughter conviction in the context of drug
dealing. The district court discussed all of this and
more during an extensive hearing with back-andforth from Williams's attorney and in a separate
written order. That, too, contrasts with Smith, where
the court "briefly" discussed just two § 3553(a)
factors at the hearing. 959 F.3d 701, Id. at *3. As
already shown, we have upheld similar rejections of
requests for First Step Act reductions, which
Congress reminds us are not "require[d]." First Step
Act, § 404(c). Those many affirmances are more
pertinent than this one reversal.
As for the claim that this trial judge is out of
step with his colleagues on the Northern District of
Ohio, that is not the measure we use, whether in
assessing above-guidelines or below-guidelines
sentences. The relevant benchmark is national
disparities in view of the national guidelines and
national statutes, not local disparities. See United
States v. Houston, 529 F.3d 743, 752 (6th Cir. 2008);
United States v. Simmons, 501 F.3d 620, 623 (6th
Cir. 2007). More to the point, each case must be
considered on its own in the context of that
individual's criminal history and that individual's
prospects for a safe re-entry into free society. That is
an exercise done most effectively by an on-the-scene
judge, not a distant appellate panel. In reviewing
those decisions, we can no more place a thumb on
the scale in favor of reversal of the trial judges most
likely to issue above-guideline sentences than the

10a
judges most likely to issue below-guidelines
sentences.
We affirm.
Dissent by: KAREN NELSON MOORE
Dissent
KAREN NELSON MOORE, Circuit Judge,
dissenting. Judge Henry Friendly once reminded us
that "the 'abuse of discretion' standard does not give
nearly so complete an immunity bath to the trial
court's rulings as counsel for appellees would have
reviewing courts believe." Indiscretion About
Discretion, 31 EMORY L.J. 747, 784 (1982). In this
case, the majority draws the water anyways, and
keeps Larry Williams in prison for twice as long as
Congress and the Sentencing Guidelines say he
should be. Because the district court's denial of
Williams's First Step Act motion lacked a
"sufficiently compelling justification for maintaining
a sentence that is now twice the guideline range set
by Congress," United States v. Marty Smith, 959
F.3d 701, ___, 2020 WL 2503261, at *3 (6th Cir.
2020) (designated for publication), I dissent.
***
Discretion means different things in different
contexts. As the Third Circuit has observed, "The
mere statement that a decision lies within the
discretion of the trial court does little to shed light
on its reviewability." United States v. Criden, 648

11a
F.2d 814, 817 (3d Cir. 1981). "The justifications for
committing decisions to the discretion of the court
are not uniform, and may vary with the specific type
of decisions." Id. This coheres with our
understanding of appellate review of sentencing
decisions. In this area, the general rule is that the
sentencing court possesses "broad discretion in
imposing a sentence within a statutory range."
United States v. Booker, 543 U.S. 220, 233, 125 S.
Ct. 738, 160 L. Ed. 2d 621 (2005) (Stevens, J.). But
as precedent teaches, the "justifications" for
sentencing-court discretion "may vary" within
different contexts of sentencing itself, Criden, 648
F.2d at 817, and the degree of discretion enjoyed by
the court may vary correspondingly. For example,
when sentencing outside the guidelines range, the
district court must "consider the extent of the
deviation and ensure that the justification is
sufficiently compelling to support the degree of the
variance." Gall v. United States, 552 U.S. 38, 50, 128
S. Ct. 586, 169 L. Ed. 2d 445 (2007). Indeed, if a
sentence is outside the advisory range, the district
court is required by statute to state "the specific
reason for the imposition of a sentence different from
that described [in the applicable Guidelines or policy
statements.]" 18 U.S.C. § 3553(c)(2). "The greater the
variance, the more compelling the justification must
be." United States v. Perez-Rodriguez, No. 18-4203,
F.3d , , 2020 U.S. App. LEXIS 16781, 2020 WL
2745316, at *2 (6th Cir. May 27, 2020) (designated
for publication). And a district court has less
discretion to vary when the case before it is in the
mine-run. See Kimbrough v. United States, 552 U.S.
85, 109-10, 128 S. Ct. 558, 169 L. Ed. 2d 481 (2007).

12a
All of these represent contexts within sentencing in
which some limits exist on the district court's
discretion. As a general matter, the degree of
discretion a district court possesses in its sentencing
determinations will depend, in part, on how far from
the beaten path it strays.
This principle should inform our review of how
a district court has exercised its discretion in
disposing of a First Step Act sentence-reduction
motion. As a starting point, the sliding scale of
discretion takes place, in the context of the First
Step Act, between two parameters. The first is the
Act's statement that a district court shall not be
"require[d]" to reduce a sentence. See First Step Act
of 2018, Pub. L. No. 115-391, 132 Stat. at 5222. The
second is our statement that with respect to the
First Step Act's statutory grant of discretion,
"district courts may, necessarily, act in a manner
inconsistent with that discretion," and thereby
"abuse this statutory grant of discretion." United
States v. Foreman, 958 F.3d 506, 514 (6th Cir. 2020).
In this particular case, three additional factors
are relevant in appraising how much discretion the
district court has, and what constitutes an abuse of
it. For one, "[t]he First Step Act itself indicates that
Congress contemplated close review of
resentencing motions." United States v. Boulding,
Nos. 19-1590, 19-1706,
F.3d , , 2020 U.S. App.
LEXIS 17224, 2020 WL 2832110, at *8 (6th Cir.
June 1, 2020) (designated for publication). As we
explained in Boulding, in retroactively reducing
penalties and recommended sentences for certain
offenders, "Congress intended district courts to
conduct[] complete review of the resentencing motion

13a
on the merits." Id. Second, the First Step Act cut
Williams's mandatory-minimum sentence in half
(previously ten years, now five years), and did nearly
the same with his sentencing guidelines range
(previously 151 to 188 months, now 77 to 96
months). Third, both parties—Williams and the
federal government—requested a sentence reduction
in this case, and at the bottom of the amended
guidelines range, no less. Although these three
factors did not require the district court to grant
Williams's
sentence-reduction
motion,
taken
together they certainly limited the district court's
discretion to deny it entirely. See Smith, 959 F.3d
701, 2020 WL 2503261, at *3.
With these limitations in mind, the district
court's denial of Williams's motion constituted a
plain abuse of discretion. First, the district court
cannot be said to have conducted a "complete review
of the resentencing motion on the merits." Boulding,
2020 U.S. App. LEXIS 17224, 2020 WL 2832110, at
*8. A one-line acknowledgment in the written order
that the district court had "taken into account
Williams' assertions that he has bettered himself
through educational and vocational classes within
prison," R. 60 (Order at 5) (Page ID #307), did not
rectify its earlier refusal to credit any efforts toward
rehabilitation made by Williams. At the hearing, the
district court generally discounted the value of
rehabilitative efforts, stating:
Yes. He may be rehabilitating himself while
he's in custody. Sure. It's easy to do that when you're
in custody. But when you're back in the community,
or when you've proven over time when you're
released from custody and you return to your old

14a
ways very quickly, then one has to ask, is this person
a good risk? R. 59 (Resent'g Hr. Tr. at 19) (Page ID
#292). The majority does not explain how this
passage shows that the district court "thought longer
incarceration would better serve the goal" of
rehabilitation. Maj. Op. at 5. Instead, these
statements, and others throughout the hearing,
reflected the district court's nearly exclusive focus on
the seriousness of Williams's other convictions, to
the exclusion of the other 18 U.S.C. § 3553(a) factors
that the court was required to consider. See
Boulding, 2020 U.S. App. LEXIS 17224, 2020 WL
2832110, at *1.
Second, the district court did not offer a
sufficiently compelling rationale for why a sentence
twice as long as that recommended by the amended
sentencing guidelines—and more than double the
new mandatory minimum—was appropriate.
In light of its concerns with the heroin and
firearm elements of Williams's case, the district
court was entitled to reject the parties' request for a
reduced sentence of 77 months. But "[t]he district
court's explanation for denying [Williams]'s motion
for a reduction does not adequately explain why
[Williams] should not receive at least some sentence
reduction." Smith, 959 F.3d 701, 2020 WL 2503261,
at *3 (emphasis added). This case is much like
Smith, a recent, binding decision in which we
vacated a district court's order denying a First Step
Act sentence-reduction motion. In Smith, the
defendant's mandatory minimum was similarly cut
in half by the First Step Act, and his resulting
sentencing guidelines range was reduced from 168210 months to 77-96 months, 959 F.3d 701, id. at *1-

15a
2, the same resulting range as Williams's. In that
case, we recounted how, in denying the motion, the
district court "briefly discussed the nature and
circumstances of Smith's offense and the need to
protect the public—two of the § 3553(a) factors." 959
F.3d 701, Id. at *3. "The [district] court pointed to
the scale and harm of [the defendant]'s criminal
conduct and determined that [he] has a high risk for
recidivism based on statistical information of people
who, like [the defendant], have a significant criminal
history." Id.
This reasoning was inadequate, we held,
because "these considerations are accounted for
within the guidelines calculation and therefore do
not provide sufficient justification for maintaining a
sentence that is twice the maximum of the guideline
range set by Congress." Id. This holding applies with
equal force here. Indeed, counsel for Williams
explained to the district court that
[i]n calculating [Williams's] current guidelines, we
took both drugs [crack-cocaine and heroin] into
account . . . . So that is part of the guidelines
calculation. And the guns are part of the sentencing
guidelines calculation as well.
The heroin and the guns are part of the case
as well, but they are taken into account in fashioning
the guideline range that we had. R. 59 (Resent'g Hr.
Tr. at 26) (Page ID #299).
The district court looked past this assertion,
reasoning that "if it involves a gun or firearms or
heroin or some other type of drug, even if it's
incorporated in the guidelines, it's going to have a
bearing on whether any kind of reduction is in
order." Id. at 27 (Page ID #300). This reasoning may

16a
suffice for declining to grant a reduction of the
degree requested by Williams, but as Smith
explains, it is insufficient for keeping the sentence at
twice the guideline range set by Congress. See
Smith, 959 F.3d 701, 2020 WL 2503261, at *2 ("The
fact that Congress was the actor that lowered the
mandatory minimum here and thereby lowered the
relevant guideline range puts that amended
guideline on 'stronger ground.') (quoting United
States v. Bistline, 665 F.3d 758, 763 (6th Cir.
2012)).1 At the very least, this reasoning does not
explain why Williams's sentence should be any
longer than 120 months, which was the sentence
imposed for the unaltered heroin and firearm counts.
In denying Williams's First Step Act motion, the
district court never explained how—now that the
crack-cocaine penalty has been dramatically
reduced—any term of imprisonment longer than 120
months is "not greater than necessary." 18 U.S.C. §
3553(a).
Third, the district court inexplicably dismissed
the significance of the parties jointly requesting a
sentencing reduction—and lashed out at them for
filing a motion at all. In this case, the government
not only refrained from opposing Williams's motion
to reduce his sentence under the First Step Act, but
counsel for the government explicitly stated at the
hearing that, like Williams, he was "asking the
Court to impose a sentence of 77 months." R. 59
(Resent'g Hr. Tr. at 8) (Page ID #281). Counsel for
the government also confirmed that the process of
deciding whether or not to join in a defendant's
request for sentence reduction under the First Step
Act is not "just a rubber stamp," but required specific

17a
evaluation of each defendant's case. Id. at 24 (Page
ID #297). It is true that district courts are not bound
by joint sentencing recommendations. But in the
context of a retroactively modified penalty structure,
which lowered both Williams's mandatory minimum
and his guideline range, it was the district court's
failure to abide the recommendation of the
prosecutor—not the prosecutor's conduct—that was
"shock[ing]." R. 59 (Resent'g Hr'g Tr. at 11) (Page ID
#284).2
This failure was compounded by the district
court's undue criticism of the parties for filing the
motion at issue here. The district court's insinuation
that Williams needed a reason beyond the enactment
of the First Step Act to file his motion was baseless,
and in any event, counsel for Williams offered a
perfectly cogent rationale for filing the motion. In
response to the district court chastising defense
counsel for "misl[eading]" Williams into thinking he
would receive a sentence reduction, counsel
responded: "This Court, in 2006, 13 years ago, was
aware of all these facts. . . . and this Court imposed a
sentence at the low end of the guidelines. That led us
to think that asking for a sentence at the low end of
his new guidelines was warranted." R. 59 (Resent'g
Hr'g Tr. at 16-17) (Page ID #289-90). Suggestion by
the district court that counsel for Williams had
"overlook[ed] the facts" was simply unwarranted. Id.
at 27 (Page ID #300).
Finally, as Williams demonstrates in his brief
(and as the government does not dispute), this
particular district judge's practice of denying First
Step Act motions appears to be clearly out of step
with the rest of the Northern District of Ohio.

18a
Indeed, this is the only judge in the district to deny
an unopposed First Step Act motion—and this is the
second time the judge has done so. Appellant Br. at
24. According to Williams, every single one of the
thirty-three unopposed, sentence-reduction motions
filed by the local Federal Defender's Office on behalf
of eligible defendants and considered by other judges
in the district has been granted. Id.; cf. United
States v. Flowers, No. 1:04 CR 223, 2019 U.S. Dist.
LEXIS 116533, 2019 WL 3068204, at *2 (N.D. Ohio
July 12, 2019) (denying a First Step Act motion that
was opposed by the government). To be clear, this
intradistrict disparity is not one that could render
the district court's order in conflict with 18 U.S.C. §
3553(a)(6), which instructs sentencing courts to
consider "the need to avoid unwarranted sentence
disparities among defendants with similar records
who have been found guilty of similar conduct." That
factor, we have held, "concerns national disparities
between defendants with similar criminal histories
convicted of similar criminal conduct." United States
v. Conatser, 514 F.3d 508, 521 (6th Cir. 2008)
(emphasis added). Still, even if local disparities
represent
a
"non-mandatory
consideration,"
sentencing courts may "consider[] local disparities to
be a relevant consideration." United States v.
Houston, 529 F.3d 743, 752 (6th Cir. 2008). This
local disparity is troubling to say the least.
For all of these reasons, I dissent.
End of Document

19a
United States v. Williams
United States District Court for the Northern
District of Ohio, Eastern Division
November 23, 2015, Decided; November 24, 2015,
Case No.: 5:06CR52
Counsel: For United States of America, Plaintiff:
Kelly L. Galvin, LEAD ATTORNEY, Office of the
U.S. Attorney - Cleveland, Northern District of Ohio,
Cleveland, OH.
Judges:
Judge.

John R. Adams, United States District

Opinion by: John R. Adams
Opinion
ORDER AND DECISION
Pending before this Court is a motion filed by
Defendant, Larry Williams, pursuant to 18 U.S.C. §
3582(c) for a reduction in his sentence under the
Fair Sentencing Act of 2010, Pub.L. No. 111-220, 124
Stat 2372 (2010) ("FSA") and Amendment 782 to the
United States Sentencing Guide lines ("Amendment
782") (eff. Nov. 1, 2014). Amendment 782 made
retroactive changes to the Sentencing Guideline's
drug quantity base offense levels by a reduction of
two levels. See U.S. Sentencing Guidelines Manual,
App. C. The Government filed a brief in opposition to

20a
Defendant's motion. For the reasons stated herein,
the motion is DENIED.
I. FACTS AND PROCEDURAL HISTORY
According to the Presentence Investigation
Report, on June 28, 2006, police executed a search
warrant at the Defendant's girlfriend's residence.
Law enforcement found the Defendant in possession,
with intent to distribute, approximately 88.73 grams
of crack cocaine and approximately 24.08 grams of
heroin. The drugs were found in a bedroom where
the Defendant was sleeping at the time of the
search. Numerous items of drug paraphernalia and
packaging materials were also found throughout the
residence.
At the time of the search, officers recovered a
receipt for a storage facility in the name of a third
party and the Defendant. Police executed a
subsequent search warrant at a U-Haul storage
facility, which produced four firearms and
ammunition. The Defendant ha d access and control
over the storage facility and had used a third party
to lease the unit, although he provided the money to
pay for the rent and had a key.
The Defendant later pled guilty to a threecount indictment, inc luding possession with intent
to distribute cocaine base ("crack"), possession with
intent to distribute heroin, and felon in possession of
a firearm. This Court then sentenced him to 151
months imprisonment as to Count 1 and to 120
months incarceration as to Counts 2 and 3, to run
concurrent to each other and consecutive to the
Defendant's state sentence. This sentence was
within the guide line range of 151 to 188 months of

21a
incarceration, at a total offense level of 29 and a
Criminal History Category designation of VI.
The Defendant now moves this Court for an
additional two-level decrease as a result of the 2014
amended sentencing guidelines.
II. LAW AND ANALYSIS
A. Legal Standard
"A federal court generally 'may not modify a
term of imprisonment once it has been imposed.'"
Dillon v. United States, 130 S.Ct. 2683, 560 U.S.
817, 819, 177 L. Ed. 2d 271 (2010) (citing 18 U.S.C.
§3582(c)). However, "Congress has provided an
exception to that rule 'in the case of a defendant who
has been sentenced to a term of imprisonment based
on a sentencing range that has subsequently been
lowered by the Sentencing Commission.'" Id. In those
circumstances, the statute authorizes a court to
reduce the term of imprisonment "...if such a
reduction
is
consistent
with..."
applicable
Commission policy statements. U.S. Sentencing
Commission, Guide lines Manual §1B1.10(b)(2) (Nov.
2009) (USSG)). "The relevant policy statement,
USSG § 1B1.10, instructs courts proceeding under
§3582(c)(2) to substitute the amended Guide lines
range while 'leav[ing] all other guidelines application
decisions unaffected.'" Id. (quoting §1B1.10(b)(1)).
Looking at §3582(c)(2), "a court may then
grant a reduction within the amended Guide lines
range if it determines that one is warranted 'after
considering the factors set forth in section 3553(a) to
the extent that they are applicable.'" Id. Thus, the
statute establishes a two-step inquiry that must be
followed: 1) a court must determine that a reduction

22a
is consistent with §1B1.10; and 2) the court must
then consider whether the authorized reduction is
warranted, either in whole or in part, according to
the factors set forth in §3553(a). Id. at 826.
At step one, the statute requires the court to
follow the Commissions' instructions in §1B1.10 to
determine the prisoner's eligibility for sentence
modification and the extent of the reduction
authorized. Id. at 827. Specifically, the court must
begin by "...determin[ing] the amended guide line
range that would have been applicable to the
defendant..." had the relevant amendment been in
effect at the time of the initial sentencing. Id.
(quoting 18 U.S.C. §3582(c)(2)). Courts generally
may not reduce the defendant's term of
imprisonment to a term that is less than the
minimum of the amended guide line range produced
by the substitution. § 1B1.10(b)(2)(A). If the
sentencing court originally imposed a term of
imprisonment below the Guide lines range, only then
is the court authorized to impose a term
"comparably" below the amended range. Dillon, 560
U.S. at 827.
At the second step of the inquiry, the court
must then consider any applicable factors set forth
in §3553(a) and "determine whether, in its
discretion, the reduction authorized by reference to
the policies relevant at step one is warranted in
whole or in part under the particular circumstances
of the case." Id. Section 3553(a) provides that a
"court shall impose a sentence sufficient but not
greater than necessary, to comply with the purposes
set forth in paragraph (2) of this subsection," and it
enumerates several factors a court "shall consider"

23a
in determining an appropriate sentence, including
"the nature and circumstances of the offense and the
history and characteristics of the defendant." 18
U.S.C. §3553(a)(1); see also Dillon, 560 U.S. at FN2.
B. The Defendant's Motion for Sentence
Reduction
Under the first step of the analysis, the
Defendant would otherwise be eligible for a sentence
reduction under §1B1.10. Under the 2014
amendment to the Sentencing Guidelines, the
Defendant would be eligible for a reduced sentencing
guideline range of 130 to 162 months, as reflected by
a total offense level 27 and a Criminal History
Category designation of VI. However, after reviewing
the Defendant's criminal history and considering the
statutory factors set forth in 18 U.S.C. §3553(a),
further reduction is inappropriate at this time.
The
Defendant's
criminal
history
is
significant. At the age of 13 years old, he admitted
guilt and was adjudicated delinquent for burglary,
violation of probation, possession of stolen auto, and
criminal trespass to vehicle and land. Approximately
each year thereafter until he reached the age of 17
years old, the Defendant engaged in similar
burglary, auto theft, possession of stolen property
and criminal trespass. In 1996, when the Defendant
was 17 years old, he was found guilty of armed
robbery of a store using a chrome automatic
handgun brandished to store clerk. At the time of his
arrest, the Defendant admitted being a member of
the Gangster Disciples street gang. He was
sentenced to seven years in prison.
Upon his release, the Defendant returned to

24a
his previous pattern of criminal activity and was
sentenced to three years of incarceration for
burglary. At the age of 26 years old, a jury convicted
the Defendant of trafficking in cocaine in the vicinity
of Central Hower High School in Akron, Ohio. The
next year, the Defendant was convicted for
Involuntary Manslaughter and possession of a
firearm.
While the charges were eventually deemed
nolle prosequi, the Court would note that, in 2002,
the Defendant was charged with Murder-Intent to
Kill/Injure and Murder-Strong Probability to
Kill/Injure, Murder-Other Forcible Felony, Home
Invasion with Firearm, Home Invasion with
Discharge of Firearm, Home Invasion with
Discharge of Firearm/Harm, Armed Robbery with
Firearm.
The Court is troubled by the Defendant's
extensive criminal history and his propensity to
engage in violent or drug-related criminal conduct.
Considering the nature and circumstances of the
offense
and
the
Defendant's
history
and
characteristics, continued incarceration is necessary
to protect the public and afford adequate deterrence
to further criminal conduct. 18 U.S.C. §3553(a). The
Court's current sentence of 151 months on Count 1
and 120 months on Counts 2 and 3 appropriately
reflects the seriousness of the offense, promotes
respect for the law and provides just punishment for
the offense in light of Amendment 782. Id.
III. CONCLUSION
Given this, after consideration of the statutory
factors set forth in 18 U.S.C. §3553(a), a further

25a
sentencing reduction is inappropriate at this time.
The Defendant's motion is hereby DENIED.
IT IS SO ORDERED.
November 23, 2015
Date
/s/ John R. Adams
Judge John R. Adams
United States District Court

26a
GENERAL ORDER NO. 2019-04
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
IN RE: THE OFFICE OF THE FEDERAL PUBLIC
DEFENDER FOR THE NORTHERN DISTRICT OF
OHIO TO REPRESENT ORDER NO. 2019-04
POTENTIALLY ELIGIBLE DEFENDANTS UNDER
SECTION 404(B) OF THE FIRST STEP ACT OF
2018
Pursuant to the provisions of the Criminal
Justice Act, Title 18, U.S.C. § 3006A(a)(l) and (c), the
Office of the Federal Public Defender for the
Northern District of Ohio is hereby appointed to
represent those defendants who have been identified
as being potentially eligible to seek a reduction of
sentence, and to present any motions or applications
for reduction of sentence, in accordance with Section
404 of the First Step Act of 2018. In the event it is
subsequently determined that private counsel or
previously appointed CJA counsel should be
appointed to represent a defendant, such counsel
shall be appointed and the Federal Public Defender
shall withdraw. Should the Federal Public Defender
determine that there is a prohibitive conflict in
which the prospective client's interests are
materially adverse to those of a current or former
client with regard to representation of a defendant in
the litigation, the Office of the Federal Public
Defender shall notify the Court and request
appointment of a member of the Criminal Justice
Act Panel.

27a
IT IS SO ORDERED.
For the Court
s
Patricia A. GaughanChief Judg

28a
GENERAL ORDER NO. 2019-04
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
IN RE: THE OFFICE OF THE FEDERAL PUBLIC
DEFENDER FOR THE NORTHERN DISTRICT OF
OHIO TO REPRESENT POTENTIALLY ELIGIBLE
DEFENDANTS UNDER SECTION 404(B) OF THE
FIRST STEP ACT OF 2018
Pursuant to the provisions of the Criminal
Justice Act, Title 18, U.S.C. § 3006A(a)(l) and (c), the
Office of the Federal Public Defender for the
Northern District of Ohio is hereby appointed to
represent those defendants who have been identified
as being potentially eligible to seek a reduction of
sentence, and to present any motions or applications
for reduction of sentence, in accordance with Section
404 of the First Step Act of 2018. In the event it is
subsequently determined that private counsel or
previously appointed CJA counsel should be
appointed to represent a defendant, such counsel
shall be appointed and the Federal Public Defender
shall withdraw. Should the Federal Public Defender
determine that there is a prohibitive conflict in
which the prospective client's interests are
materially adverse to those of a current or former
client with regard to representation of a defendant in
the litigation, the Office of the Federal Public
Defender shall notify the Court and request
appointment of a member of the Criminal Justice
Act Panel.

29a
IT IS SO ORDERED.
For the Court
Patricia A. Gaughan
Chief Judg

